Certificate of Service
No. 20Natalie McDaniel,

petitioner

v.
Robert Wilkie, Secretary of Veterans Affairs

I hereby certify that 1 unbound copy of the petition
for a writ of certiorari and appendix was sent via
Next Day Service to the U.S. Supreme Court and 3
copies were sent via First Class Mail and e-mail to
respondent and respondent’s council:
Robert L. Wilkie Jr., Secretary of Veterans Affairs
Office of the Secretary, U.S. Department of Veterans Affairs
810 Vermont Avenue, NW, Room 1000 Washington, D.C. 20420
Jeffrey B. Wall, Acting Solicitor General of the United States
U.S. Department of Justice, Room 5616
950 Pennsylvania Ave, N.W. Washington D.C. 20530-0001
(202)-514-2217
supremectbriefs@usdoj .gov
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 9, 2020

Natalie McDaniel, Appearing pro se
2352 Demington Dr. Cleve. Hts. OH 44106
216-302-8320
SupremeBriefs@sttpower.com

